<html>
<title> - NOMINATION OF HON. M. JOHN BERRY</title>
<body><pre>[Senate Hearing 111-663]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-663

                    NOMINATION OF HON. M. JOHN BERRY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

 NOMINATION OF HON. M. JOHN BERRY TO BE DIRECTOR, OFFICE OF PERSONNEL 
                               MANAGEMENT

                             MARCH 26, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
50-84 PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
 Thomas Richards, Professional Staff Member, Subcommittee on Oversight 
 of Government Management, the Federal Workforce, and the District of 
                                Columbia
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
    Jennifer A. Hemingway, Minority Staff Director, Subcommittee on 
  Oversight of Government Management, the Federal Workforce, and the 
                          District of Columbia
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     4
Prepared statements:
    Senator Voinovich............................................     5
    Senator Akaka................................................     6
    Senator Lieberman............................................    25

                               WITNESSES
                        Thursday, March 26, 2009

Hon. Steny H. Hoyer, a Representative in Congress from the State 
  of Maryland....................................................     2
Hon. Benjamin L. Cardin, a U.S. Senator from the State of 
  Maryland.......................................................     3
Hon. M. John Berry to be Director, Office of Personnel Management     8

                     Alphabetical List of Witnesses

Berry, Hon. M. John Berry:
    Testimony....................................................     8
    Prepared statement...........................................    27
    Biographical and financial information.......................    31
    Responses to pre-hearing questions...........................    37
    Letter from the Office of Government Ethics with an attached 
      letter.....................................................    70
    Responses to post-hearing questions..........................    71
Cardin, Hon. Benjamin L.:
    Testimony....................................................     3
Hoyer, Hon. Steny H.:
    Testimony....................................................     2

                                APPENDIX

Senator Barbara A. Mikulski, prepared statement..................    25

 
                    NOMINATION OF HON. M. JOHN BERRY

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:27 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka 
presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. I want to 
say aloha and welcome to all of you. It is obviously a joyous 
moment for those who are here today.
    Today the Committee on Homeland Security and Governmental 
Affairs meets to consider the nomination of John Berry to be 
Director of the Office of Personnel Management (OPM).
    Mr. Berry is a native of Washington, DC, and a graduate of 
the University of Maryland and the Syracuse University Maxwell 
School of Public Administration.
    Mr. Berry is a lifelong public servant. He currently is the 
Director of the National Zoo, where he successfully shepherded 
a 20-year facilities master plan for the zoo, which the 
National Capital Planning Commission approved in November 2008. 
He has worked in a variety of posts in the Smithsonian 
Institution, the Department of the Interior, and the Department 
of the Treasury, in addition to serving the people of Maryland 
while working in the Montgomery County Government and the 
Maryland State Senate.
    Of course, Mr. Berry also served as Congressman Steny 
Hoyer's Legislative Director for 10 years. With your experience 
in Congress, I expect we will have a particularly cooperative 
and productive working relationship between OPM and the 
Congress if you are confirmed.
    I am delighted to welcome my good friends Senator Ben 
Cardin and Majority Leader Steny Hoyer, who are here to 
introduce Mr. Berry. We appreciate both of you taking the time 
to speak on his behalf and welcome your thoughts. I know you 
both are very busy and, in the interest of time, would welcome 
any statement you have now.
    I am going to call on Senator Cardin to begin, because----
    Senator Cardin. Senator Akaka, if I might, if I could defer 
to Congressman Hoyer. I think it would be appropriate for him 
to go first.
    Senator Akaka. Thank you very much, Senator Cardin. At this 
moment, I would like to call on Majority Leader Steny Hoyer of 
the U.S. House of Representatives, a great man who has served 
so well, for his statement and his comments on John Berry. 
Congressman Hoyer.

STATEMENT OF HON. STENY H. HOYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Hoyer. Mr. Chairman, thank you very much for your warm 
welcome. I thank my dear friend, one of my closest friends in 
life, Senator Cardin for yielding to me.
    I am totally subjective on the subject of Mr. Berry. 
[Laughter.]
    I believe Mr. Berry is one of the most extraordinary, good 
and decent and able human beings I have met in my entire 
lifetime. I could end my statement perhaps at that point. 
Suffice it to say that I think he will perform an extraordinary 
service for the Federal employees, for the Obama 
Administration, for the Federal Government, and for the 
American people. So I thank you for giving me this opportunity.
    I first came, Mr. Chairman, to appreciate Mr. Berry's 
talents when he served for a decade as my Legislative Director. 
You probably first met him in that capacity as you and I were 
seatmates on the Subcommittee on Treasury, Postal Service, and 
General Government of the House Appropriations Committee. We 
sat next to one another for many years, along with Chairman 
Edward R. Roybal, and your role on that committee was critical.
    In the role that Mr. Berry played for me, he was an 
essential part of shaping policy affecting all Federal 
employees, and the legislation that structures their salaries, 
Mr. Chairman, to this day bears Mr. Berry's stamp.
    From the beginning of his career in public service, Mr. 
Berry has had an excellent grasp of the issues and challenges 
confronting our 1.8 million Federal civilian employees. He has 
also proven himself as a highly skilled administrator.
    As Assistant Secretary for Policy, Management and Budget at 
the Interior Department, Mr. Berry won the respect of his 
employees and repeatedly stood up for government workers who 
were targeted for discrimination because of their sexual 
orientation. And as Director of the National Fish and Wildlife 
Foundation, he proved himself to be an ardent conservationist 
as well.
    Today he brings together his skills in administration and 
conservation as Director of the National Zoological Park, as 
you have pointed out, the job in which he oversees a budget of 
nearly $40 million, 240 employees and perhaps most 
impressively, more than 2,000 wild animals. As director, he has 
dedicated himself to revitalizing the zoo's facilities, as you 
pointed out as well, making them safer and more welcoming for 
families and attracting thousands of more visitors with such 
special events as winter's ZooLights.
    He has also strengthened the zoo's standing as an 
international leader in animal conservation and research. Those 
are just a few, Mr. Chairman and Senator Voinovich, of Mr. 
Berry's many accomplishments. They speak to a creative 
intellect, and I would stop on that part of my statement.
    One of the strengths that Mr. Berry brings to any task that 
he confronts is that creativeness, that flexibility, that 
willingness to look at things in a different way if the way 
that we were looking at them did not work. That was one of the 
great strengths he brought to my staff.
    I tell people that if there were 100 ways to do something 
and you told Mr. Berry each time that he went through the first 
99 that he could not do it that way, he would find the 100th 
successful way to do it. That will be an extraordinarily 
important skill that he will bring to his directorship of the 
Office of Personnel Management.
    He has a dedication to service that those who have worked 
with Mr. Berry know firsthand. It was my privilege, as you 
pointed out, to work with him for over a decade and, very 
frankly, every year since he left my staff. And of course, 
Senator, I tell people they can go off the payroll, but they 
cannot go off the staff.
    I never really feel that Mr. Berry was ever off the staff 
because I worked very closely with him in so many different 
ways. I would urge his confirmation with dispatch. I can assure 
you that it is my view that he will make all of us very proud--
this Committee, the U.S. Senate, the Obama Administration, and 
our country.
    I am proud of his leadership, his service, and every 
employee who has the benefit of his focus will believe that 
they have a true advocate, an able spokesperson, and a very 
caring person serving them and serving our government. I thank 
you for this opportunity to testify on his behalf.
    Senator Akaka. Thank you very much, Majority Leader Steny 
Hoyer of the U.S. House Representatives, for your statement. I 
really appreciate this.
    Mr. Hoyer. Thank you.
    Senator Akaka. Thank you. I know you are busy.
    Mr. Hoyer. I want to hear Senator Cardin's statement. 
[Laughter.]
    I know it will be brilliant, and therefore, I want to hear 
it. [Laugher.]
    And I am very pleased to be with my good friend Senator 
Voinovich as well.
    Senator Akaka. Without further adieu, Senator Cardin.

 STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. I really wanted to be here to see whether 
we had to hold Congressman Hoyer in contempt of the Senate. I 
am glad that his remarks today were aimed at Mr. Berry and not 
beyond.
    First let me just concur on everything that the Majority 
Leader has said about Mr. Berry. We are very proud of his 
public service. We thank you very much for your continued 
willingness to want to serve our Nation. We thank you, and we 
thank your entire family for the sacrifices that you make.
    Steny Hoyer is right; we have an extraordinary person who 
has the strong support of Senator Mikulski and myself. Mr. 
Berry has devoted his life to public and community service, and 
he has done it with great distinction. He has vast 
administration experience, which I think is going to serve him 
very well at OPM.
    He has good judgment and unquestioned integrity, and I 
think that really sums it up. We have gone over his background. 
He survived serving as the Legislative Director for Congressman 
Hoyer. I know that was a difficult task, but he served with 
great distinction in the House.
    He has great administrative experience in several agencies, 
from the Treasury to the Interior to the Smithsonian. He served 
in the private sector in a non-profit with the National Fish 
and Wildlife Foundation. He brings, I think, the right package 
of experience to a very difficult job at OPM, and I 
wholeheartedly endorse his nomination and recommend to the 
Committee that we move quickly on his confirmation.
    Senator Akaka. Thank you very much, Senator Cardin, for 
your statement. Again, I want to thank both of you for your 
statements, and before I call on our Ranking Member, Senator 
Voinovich, I will permit you the chance of departing. Yes?
    Mr. Hoyer. I am sticking with you. [Laughter.]
    Always good to see you, Senator Cardin.
    Senator Akaka. Thank you very much. Before I call on 
Senator Voinovich, I want to welcome the family of John Berry 
and give Mr. Berry the opportunity to introduce them to the 
Committee.
    Mr. Berry. Senator, I am very honored to. Thank you so much 
for the opportunity. I would like to start, if I could, with my 
sister, Maureen Raimo, and her husband, Arthur Raimo, and her 
two children, Anne Buss--her husband is a member of the Capitol 
Hill Police Force, sir, and is on duty today, so he could not 
be here with us--and her sister, Betsy Raimo, and her 
boyfriend, Luke Myers.
    My brother is here with his family. My brother, Joseph 
Berry, his wife, Jody, and their son, Thomas. And then my 
partner, sir, from Honolulu, Hawaii, for the past 12\1/2\ 
years, Curtis Yee, as well.
    Mr. Hoyer. Good planning. [Laughter.]
    Mr. Berry. Thank you, sir. Appreciate the opportunity.
    Senator Akaka. Thank you very much. At this moment I am 
going to withhold my statement because we have an important 
vote on the floor, and the time is running on that. I am going 
to yield to Ranking Member Voinovich to make his statement. We 
will be back after recess, and I will give my statement, and we 
will have Mr. Berry give his statement.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. First of all, I think it is a real 
tribute to you that Senator Cardin is here and your old boss 
thinks enough of you to come around and say you are a terrific 
guy, and the fact that you have stayed in touch with him over 
the years is a real tribute to the relationship that you have 
built with him.
    I have a great deal of respect for Representative Hoyer. We 
have known each other a long time. He is one of the good guys 
as far as I am concerned.
    It is a pleasure for me to review your qualifications. I am 
looking forward to hearing your plans for OPM. My experience as 
a county auditor, county commissioner, mayor, and governor have 
underscored for me the importance of human capital, and one of 
the things that I have tried to do, with Senator Akaka, to deal 
with our human capital challenges is to give the Office of 
Personnel Management the flexibility needed so that our 
agencies can hire the right people and retain and reward them.
    We know that there is room for improvement, and as I 
mentioned to you when you were in my office, I am going to 
expect it from you, and I suspect that Senator Akaka will also. 
After you get in the saddle, I want you to come back to us to 
talk about your observations and what needs to be done at OPM.
    But immediately, I think you really need to look at the 
issue of the people that the Administration is going to need in 
their respective departments to implement the stimulus package. 
Senator Akaka and I have asked the Office of Management and 
Budget (OMB) to come back to us with a list of the agencies and 
where are they in terms of the people that you are going to 
need.
    In many instances, the jobs will be short-term, but 
agencies will still struggle with the question of how to bring 
them on board. There are lots of flexibilities that are 
available to departments, and one of my frustrations, and 
Senator Akaka's, is people are not using them.
    We really are unhappy with our hiring system. We are in the 
dark ages if you look at where we are compared with the private 
sector.
    We have a little break right now, Mr. Berry, because of the 
fact that the economy is so bad, and I think a lot of our 
Federal workers are going to want to stay on a little longer 
than they might ordinarily. But the fact is, things are going 
to get better and we are going to be out there competing for 
the best and the brightest, and if we do not have a recruitment 
or a program in place that makes sense, we are going to fall 
behind.
    So that is the end of my statement. We look forward to 
working with you.
                 OPENING STATEMENT OF SENATOR VOINOVICH
    Good afternoon, and thank you, Chairman Akaka. It is a pleasure to 
be here today to review the qualifications of Mr. John Berry to be 
Director of the Office of Personnel Management. Mr. Berry, I applaud 
your continued commitment to public service, and look forward to 
hearing your plans for ensuring OPM and the Federal Government as a 
whole manages its most important asset--its workforce.
    My own experience as County Auditor, County Commissioner, Mayor, 
and Governor has taught me that, of all the things in which government 
can invest, resources dedicated to human capital bring the greatest 
return.
    Our nation is grappling with significant challenges--from the 
foreclosure crisis to record levels of unemployment. At the same time, 
our deficit continues to grow. Federal agencies are struggling to hire 
the workforce needed to meet current and future challenges, including 
responsibly allocating the almost $790 billion in stimulus funds and 
processing the backlog of 767,000 Social Security disability claims. At 
the same time, agencies must prepare for the retirement of many 
experienced workers to ensure their knowledge is not lost with their 
departure from federal service.
    The only way the Federal Government will succeed in accomplishing 
its many missions is if we improve our ability to recruit and retain a 
world class workforce and then recognize their daily contributions to 
improving government performance.
    Mr. Berry, you seek this nomination at a critical time in OPM's 
history. Federal agencies are not fully engaged in strategic human 
capital planning. Key agencies remain at the bottom of the Best Places 
to Work rankings. Federal annuitants have been waiting for a modern 
retirement processing system since 1984. Individuals in need of access 
to classified information are forced to rely on antiquated systems. Job 
announcements make a poor impression on those who want to make a 
difference. As OPM's role continues to evolve, its workforce must be 
structured to tackle these challenges. In addition, OPM's human 
resource products must offer better value to agency customers.
    Mr. Berry, I look forward to hearing how you will lead OPM in 
tackling these challenges. If confirmed, I would ask you to report to 
the subcommittee in 90 days with your short, near, and long-term 
priorities; so we can assist you in meeting them on behalf of our 
nation's public servants and the people they serve.
    Thank you, Mr. Chairman.

    Senator Akaka. Thank you very much. I was going to 
interrupt him to say that I regard Senator Voinovich as a 
champion of human capital and so I am fortunate to be working 
with him on this and look forward to doing that.
    I understand we have less than 5 minutes left in a vote, so 
this Committee will be in recess for a few minutes.
    [Recess.]
    Senator Akaka. Thank you very much for being so patient. 
This hearing will come to order.
    Mr. Berry has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the record, with the 
exception of the financial data, which is on file and available 
for public inspection at the Committee offices.
    Before I left, I said that I would make an opening 
statement, but at this time, I will ask unanimous consent that 
my statement be included in the record.
    [The prepared statement of Senator Akaka follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Today, the Committee on Homeland Security and Governmental Affairs 
meets to consider the nomination of John Berry to be Director of the 
Office of Personnel Management (OPM).
    Mr. Berry is a native of Washington, D.C. and a graduate of the 
University of Maryland and Syracuse University Maxwell School of Public 
Administration. Mr. Berry is a life-long public servant. He currently 
is the Director of the National Zoo, where he successfully shepherded a 
20-year facilities master plan for the zoo, which the National Capital 
Planning Commission approved in November 2008. He has worked in a 
variety of posts in the Smithsonian Institution, the Department of the 
Interior, and the Department of the Treasury, in addition to serving 
the people of Maryland while working in the Montgomery County 
Government and the Maryland State Senate. Of course, Mr. Berry also 
served as Congressman Steny Hoyer's Legislative Director for 10 years.
    The Federal Government and its workforce are under a tremendous 
amount of pressure. We are fighting two wars overseas and trying to 
guide the recovery of our struggling economy. People are looking to the 
Federal Government for strong, effective leadership from the most 
senior officials to the front-line employees. Having the right talent 
in the right jobs is more important now than ever. If confirmed as 
Director of OPM, you will be vital to confronting this challenge and 
helping agencies meet their workforce needs and their missions.
    Since 2001, Strategic Human Capital Management has been included in 
the Government Accountability Office's (GAO) annual High Risk Series 
report. Furthermore, GAO considers strategic human capital management 
as a critical element in 18 of the 30 high risk areas. Successful human 
capital management requires real focus and bold leadership.
    As you know, Senator Voinovich and I have worked very hard on this 
Subcommittee to address the human capital challenges in the Federal 
Government. We have provided agencies many flexibilities, which too 
often are going unused. We must do more to make the Federal Government 
the employer of choice. As more of the federal workforce becomes 
eligible for retirement, we must look to the next generation of federal 
workers. A wave of new employees with similar aspirations, but 
different career expectations, is ready to take on the call to service.
    One way to do this is for OPM to support competitive benefits for 
employees at all points in their careers. OPM must help agencies 
implement recruitment, hiring, and on-boarding processes that attract a 
highly-talented workforce. Another is to improve the federal hiring 
process. The current process is too confusing, too complicated, and too 
long. I believe the hiring process must be streamlined, timely, and 
informative to applicants while maintaining the merit system principles 
including Veterans' Preference. Agencies must be held accountable for 
modernizing their hiring processes so that qualified employees from a 
diverse range of backgrounds can be brought on board in a timely 
manner.
    Managers must be held accountable for improving morale and 
productivity so that we are able to retain employees as well. I believe 
training can go a long way to support this goal. Earlier this week, I 
introduced the Federal Supervisor Training Act to provide initial and 
ongoing management training to all supervisors in the Federal 
Government. Agencies would be required to train supervisors on 
management and leadership skills, mentoring, prohibited personnel 
practices, and ways to foster an environment of fairness, respect, and 
equal opportunity based on the merit of employees' work.
    As you know, last year also I introduced a bill that would have 
reestablished Labor-Management Partnerships. I understand that the 
Administration is considering reestablishing partnerships. I believe 
that this will go a long way toward rebuilding a collaborative 
relationship with employee unions and managers.
    The need for stronger labor-management partnership has been evident 
in efforts at personnel and performance management reforms over the 
last few years. Congress granted broad personnel authorities to the 
Department of Defense and the Department of Homeland Security, but 
these Departments' efforts have been plagued by concerns about 
fairness, transparency, and accountability. Greater cooperation with 
federal employees could have improved the reform proposals and, 
importantly, employees' perceptions of them. With a new Administration, 
we have an opportunity for a strategic pause. I am pleased that OPM and 
DOD are planning a review of the National Security Personnel System, 
and I look forward to those results and recommendations. I hope that 
you will work closely with federal employee unions and other 
stakeholder groups as you consider personnel reforms.
    In his address before Congress on February 24, 2009, President 
Obama called for a renewed spirit of national service for this and 
future generations. The federal workplace should be a model workplace, 
and every federal worker should feel proud to work for the Federal 
Government. Civil servants should feel a sense of honor, duty, and 
importance to the Nation, and carry that feeling with them into work 
every day. In turn, I believe employees will work better, be more 
productive, and inspire the confidence of the American people in the 
work of their government. In this new role you will not only be the 
steward of employees' rights, paychecks, and performance, you will also 
be responsible for inspiring the renewed spirit of service in the 
Federal Government and the next generation of federal employees. I look 
forward to working with you and hope that we can work together to 
address the challenges of the modern workforce.

    Senator Akaka. Our Committee rules require that all 
witnesses at nomination hearings give their testimony under 
oath. Mr. Berry, I ask you to please stand and raise your right 
hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Berry. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witness answered in the affirmative.
    Mr. Berry, I apologize for the delay. We had three votes 
instead of one. Please proceed with your statement.

 STATEMENT OF HON. M. JOHN BERRY \1\ TO BE DIRECTOR, OFFICE OF 
                      PERSONNEL MANAGEMENT

    Mr. Berry. Mr. Chairman and Senator Voinovich, thank you so 
much. I am deeply honored to be here with you today and 
appreciate you taking this time to hear from me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berry appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    My entire career has been one of public service, both as an 
employee and a manager. I was raised to appreciate the 
importance of service and the opportunity for good that it 
affords. My father volunteered for the Marine Corps before 
Pearl Harbor and was in the 1st Marine Division at Guadalcanal. 
My Uncle Jack, for whom I am named, served as a Marine fighter 
pilot and lost his life in battle in the Pacific. My mother 
worked full time as an x-ray technician, but also served with 
the Census Bureau in her later years.
    It was the highest honor of my life when President Obama 
called to ask me to serve his Administration in this critically 
important position. I only wish my parents had lived to see 
this day, as it was their firm belief in the power of 
education, their love of country, and their constant and 
enduring love for me, my sister, and my brother that made this 
day and opportunity possible.
    Our country today faces many challenges. I believe that the 
reason our Nation has not only faced, but overcome, every 
challenge in our history is because during every one of those 
times, men and women of goodwill, keen minds, and strong hearts 
have always stepped forward to aid their Nation through 
service, both in government and in our armed forces.
    The civil service today carries forward that proud American 
tradition. Whether it is defending our homeland against attack, 
restoring confidence in our financial systems and administering 
an historic stimulus effort, ensuring adequate healthcare for 
our veterans and fellow citizens, or searching for cures to the 
diseases that plague us, we are fortunate to have the best and 
the brightest to rely upon.
    It is our people who are our most important tool in facing 
any challenge, and we forget that at our peril. I pledge to 
this Committee that if I am confirmed, I will, to the best of 
my abilities, work my heart out on behalf of the men and women 
of our civil service, both active and retired, and defend the 
merit system with the same rigor as Teddy Roosevelt.
    Just as he established a firm foundation for the success of 
the civil service in the 20th Century, we must today bring the 
same vigor to guarantee a civil service ready for the 
challenges of the 21st Century. The pressures and demands on 
OPM are great, nearly as serious as those of its predecessor, 
the Civil Service Commission, which it successfully met in the 
1930s and 1940s.
    I believe OPM and its talented employees are ready to rise 
to these new challenges once again. We face a new reality. In 
the next decade, there will be a significant increase in the 
percentage of Federal employees eligible to retire. We need to 
consider and craft creative approaches that will allow us to 
engage the skills and experience of our own retirees and the 
Nation's aging population.
    At the same time, we must balance our response to this 
trend with training, mentoring, and providing opportunities for 
promotion for the new generation entering and advancing through 
our workforce. The youth of today may not envision staying with 
one employer for the entirety of their careers.
    We need to balance and mix flexible benefit approaches 
attractive to younger entrants to the workforce with our 
existing more traditional model to appeal to the broadest 
possible range of workers. We need to reach out and attract, as 
I have said, the best and the brightest from all backgrounds 
and walks of life and recognize that in our fast changing 
world, we must constantly develop job skills through training.
    We must commit to training our managers as well to enable 
them to face the many complex challenges that confront us 
today. We need to expect the best from every worker, and we 
must ensure effective approaches to encouraging, evaluating, 
and rewarding superior performance as well as correcting 
shortfalls. In exchange, we need to provide competitive pay and 
benefits, healthy model workplace environments, and sensitivity 
to employees' responsibility to their families and loved ones.
    Finally, we need to honor those who have served their 
country well, both in the armed services and in the civil 
service, by ensuring their dignity during their retirement. It 
is my opinion that as the Nation's largest employer, we should 
be its model employer. We should seek to adopt the best 
practices for every piece of our human resource operation.
    One of the first things I would seek to do if confirmed 
would be to convene a good cross section of practitioners and 
thinkers from across the government involving the private 
sector, the non-profit world, academia, unions and managers who 
can help us define what are the current best practices in use 
today across the Nation.
    I look forward to learning from them what has worked well 
and what has failed, and I look forward to working with you and 
your staff to build a consensus for what might be possible in 
advancing our government toward the title of model employer.
    I ask for your support, both now and if confirmed, in the 
years ahead, as we seek to maintain the finest civil service of 
the world.
    Thank you, and I am prepared to answer any questions that 
you might have.
    Senator Akaka. Thank you very much, Mr. Berry. I will begin 
with the standard questions that this Committee asks of all 
nominees. First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Berry. Nothing that I am aware of, sir.
    Senator Akaka. Second, do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Berry. Not that I am aware of, sir.
    Senator Akaka. And finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Berry. I do.
    Senator Akaka. Thank you very much. Mr. Berry, I should 
tell you, much of what you mentioned in your statement sounds 
like what Senator Voinovich and I have talked about in the 
past, and of course, we look forward to working with you to 
implement those ideas.
    There are many challenges facing human capital management 
in the Federal Government, including addressing staffing 
shortages in critical occupations, modernizing Federal 
benefits, fixing the broken hiring process, and a variety of 
other issues. If confirmed, what will be your top priorities?
    Mr. Berry. I think, Mr. Chairman, just to expand a little 
bit, when I say that I would like the Federal Government to be 
the best employer, the model employer for the country, I sort 
of shortened my statement. I hope, with your indulgence, the 
whole statement would be included in the record.
    I think of that as in each category of our human resource 
management functions, so if you break that into the traditional 
functions that you think of--recruitment, hiring, retention, 
pay and benefits, appraisal systems, discipline systems, 
retirement, labor management relations--in each of those we 
ought to be following the best practices.
    We need to put in place what works, and I believe that in 
many instances, the Federal Government may already be using the 
model practice. We may be the model employer in a number of 
those areas, but in other areas, there is no question but that 
we have to do better. I know that you and Senator Voinovich 
have been leaders in examining each of these processes and have 
put in place many great improvements over the years.
    Hiring is one function that is still broken, and despite 
all of our best efforts, the civil servants at OPM have worked 
very hard and tirelessly to put in place and to take advantage 
of new authorities which you have all given to the agency, but 
it still is an arduous process and often times we are losing 
good talent. We are not getting the best and the brightest 
because they have already been snatched away or hired to other 
positions.
    And so I think the first task is to determine what are 
those best practices, but it is clear that hiring has to be the 
first and foremost objective in looking at those practices to 
make that work better.
    Senator Akaka. Thank you. You mentioned that you would like 
your statement to be included in the record. It will be 
included in the record.
    Mr. Berry. Thank you, sir.
    Senator Akaka. Mr. Berry, the Partnership for Public 
Service ranked OPM 25th out of the 30 large Federal agencies in 
its 2007 rankings of the best places to work in the Federal 
Government. Strategic management and effective leadership were 
two of OPM's lowest scores.
    In addition to your government-wide human resources role as 
the head of OPM, you will be responsible for improving the 
management and human capital in your own agency. How do you 
plan to tackle this challenge?
    Mr. Berry. I think, Mr. Chairman, it is the approach--good 
management, I believe, works the same everywhere. It is the job 
of the director, of the leader of an agency, to lay out a very 
clear vision for what he or she expects the agency to be 
accomplishing. I look forward to doing that if I am confirmed.
    You have heard essentially my vision today is I want us to 
be the best, the model employer for the country, and for the 
world, for that matter. Everything that I will do will flow 
from that vision. I believe that the strategic plan that would 
have to be put in place will have to identify clear and 
measurable steps, for which we will be accountable to the 
Congress and to the Committee and, quite frankly, to the 
employees, that we are making solid progress toward that 
ultimate vision of being the best, of identifying what are the 
short-term, medium-term, and longer-term steps that need to be 
taken to accomplish that, and then to go after them full bore 
with enthusiasm.
    I am a believer that a leader has to be a person of good 
cheer. I think optimism is the nectar of progress, and if you 
believe in your vision and you empower your people to work 
toward that end and hold them accountable as you go--regularly 
checking in and saying how are we doing, are we making clear 
progress toward the goals that we would set up for how we are 
measuring ourselves to be the best, the model workforce--we 
will get clear, defined progress toward that goal, I would 
hope, over my tenure.
    I think right now that is what the employees at OPM are 
desirous of. They want a clear vision. They know how important 
the mission is to protect the merit system. They know how 
critical it is to get the best and the brightest in. They are 
not defenders of red tape. They want to make this work right.
    My commitment to you is I will run to keep up with them and 
make sure that together we accomplish the vision that I am 
promising you today.
    Senator Akaka. Thank you very much. Let me call on Senator 
Voinovich for his questions to you.
    Senator Voinovich. I would like to follow-up a little bit 
on what Senator Akaka was talking about. The issue is how would 
you go about management and employee satisfaction? Are there 
best practices or agencies that you would visit that have best 
practices to find out what they are doing? I get the impression 
that you are going to go in, kind of look it over, and then do 
it yourself. Are you familiar with Linda Springer's plans?
    Mr. Berry. Absolutely, Senator. First, if I conveyed that I 
would do it myself, I did not mean to do such. A leader is a 
member of a team and can only go as far as the team will take 
him. Leadership is a two-way street. You need to lay out a 
vision, but then you need to listen to your team on how to 
implement that vision.
    I think Director Springer's strategic plan was a good one 
for her period, and it has essentially come to its end. It 
needs to, as any strategic plan, be renegotiated, rebuilt in 
light of a new Administration and a new team. That needs to be 
done in concert with the other Federal human resource officers 
across the government.
    I think the Chief Human Capital Officers (CHCO) panel that 
has been put in place is a wonderful model. Having the human 
resource managers and the human capital officers regularly get 
together would be my intention. I would be an active 
participant and the chair of the organization, convening it 
regularly, setting the agenda, listening to what the issues of 
the day for those folks are so that we can be responsive.
    Senator Voinovich. What I am really interested in is the 
method that you would go about to review and improve OPM as the 
new boss. You have 5,800 working for you. What is your vision 
for the organization? What are you going to do in order to move 
OPM out of a place where the people do not feel that good about 
the management and where employee satisfaction is low?
    Mr. Berry. The first thing you do is get a team in place, 
and so I would be working with the President to appoint a team. 
I think he has made three outstanding appointments that I am 
aware of, so far that I have been consulted on in that process 
as well, and if I was confirmed----
    Senator Voinovich. Are you happy with those people?
    Mr. Berry. Very much so, sir. I think each one of the three 
that have been announced would classify in anyone's standard as 
amongst the best and the brightest in their fields. They are 
outstanding professionals, and I would very much look forward 
to working with them.
    Essentially, three out of the five have already been named, 
and my understanding is the remaining two are just on the cusp 
of being named in the near future and----
    Senator Voinovich. Actually, there are six appointments to 
the OPM that are presidential appointments.
    Mr. Berry. Right. Two more are ready to go. The third one 
is teed up a little farther down the line. But I think the goal 
is first to get a team together. That is job one.
    Job two is to meet with all of the employees, with the 
managers, with each of the units of OPM, get a firm 
understanding of what is going on in the agency and then have 
town hall meetings where you can meet with all of the employees 
of OPM to allow open access in terms of what is going on, what 
are the biggest issues of your concern, what do you think has 
been working well, what do you think needs more attention, and 
hear that, and allow accessibility.
    I hope that is not going to be a once-a-month event. We 
will have regular meetings if I am confirmed in this position, 
but we will also have other forums to accept information from 
all employees. We will have Websites, which are essentially 
open suggestion boxes, and the ombudsman role in agencies where 
I have been has been a very effective one. If people feel there 
is something that they do not want to stand up and put their 
name on, but it is still important and needs attention, they 
can go to the ombudsman and bring it forward.
    So my goal would be to throw that net within the agency, 
but you do not stop at the borders of the agency in my opinion. 
You have to throw that net throughout the Federal Government 
because OPM is a servant of the Federal Government. We are 
there to service the other agencies.
    And we cannot just be meeting with the CHCO panel. We need 
to meet with the secretaries, the deputy secretaries. I need to 
go around and meet with each agency, not only at the senior 
levels, but also to give the same opportunities to the 
employees there. What do you feel works in your agency with 
human resources? What do you think needs attention?
    I look forward to being able to do that. I think the Public 
Service Commission has done a great job with that. There is a 
lot of work that has been done between Grant Thornton and these 
committees, so you are not starting from scratch, but I think 
it is important for any new director, whomever you would put 
into this position, to be willing to go out and do the shoe 
leather, not to run this office from the office at 19th and E 
Street. The Director has to be omnipresent throughout the 
Federal Government, and it would be my intention to do that.
    Senator Voinovich. I am concerned about that because the 
best way I think that you can help other agencies is to get 
your agency working the way it should in terms of management 
and in terms of employee satisfaction so that you can use your 
agency as a role model. If your agency is working like a top, 
then you are going to be able to service the rest of these 
other agencies in the Federal Government.
    Mr. Berry. Right.
    Senator Voinovich. You are going to have to spend the next 
couple of years really shaping up OPM. If you can streamline 
the hiring process, just think of not only the change it will 
make in your agency, but what impact that will have on the rest 
of the other Federal agencies. The same thing with the 
retirement system. They tried to modernize the system, but we 
still keep the records for retirees with pieces of paper.
    Senator Akaka and I have introduced legislation to deal 
with people who want to work at the tail end of their career on 
a part-time basis where that will not interfere with the status 
of their annuities. In agencies where you are bringing on new 
people, it is a way to keep them in place and to get the 
benefit of their knowledge and experience.
    But I really think that your main goal is to shape up OPM 
and be the No. 1 agency in terms of employee satisfaction. Go 
over to the Nuclear Regulatory Commission, which has the best 
record of them all, and say, what are you doing over here that 
makes a difference and can I copy some of the ideas that you 
have here in my agency?
    I think your idea of meeting with your managers is a 
terrific idea. I lobbied this place for 18 years as a mayor and 
as a governor, and I saw one Administration after another and 
the new secretaries came in, the deputy secretaries, the 
assistant secretaries, and all the rest of them, and it always 
seemed that what they did is they ignored the A-team, the team 
that was there, the team that knew what was going on, and 
rarely did they get asked how they could improve their own 
performance.
    That is the kind of stuff that I would like to see, and 
later on, if you get in the saddle, I think we will have you 
back maybe to visit with you about that.
    Mr. Berry. Great.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. Mr. 
Berry, for more than a decade, departments and agencies have 
sought and been granted personnel authorities outside of a 
government-wide framework. Many have claimed that their unique 
missions require unique flexibilities.
    This has created multiple personnel systems across the 
Federal Government, even within departments and agencies. Do 
you believe this is efficient and effective, or is a more 
comprehensive approach needed?
    Mr. Berry. Mr. Chairman, I think the Federal Government may 
be so big, I do not want to say that one size will fit all. I 
do not have any sacred cow, if you will, that I come into this 
with other than one principle and that is the merit principles, 
which basically say we should hire people who can do the job 
because they have the skills to do the job and we evaluate them 
by how well they do that job and nothing else.
    And that has to be the pole star. That has to be our 
constant sort of evaluative tool. If we are protecting that, 
then I think we can look at flexibilities and differences, but 
at some point, we have to be careful, and I think you raised 
this in your question, sir.
    The Federal Government does have to treat like employees 
similarly, and we cannot say to one employee over here who 
risked his life and is doing everything that he can to serve 
his country, to the employee over here who is doing the exact 
same thing on a day-by-day basis, well this person gets paid 
more than you do or this person is treated differently than you 
are.
    We have to be careful about that. I think there can be 
periods where there may be flexibilities that we can do fairly 
and legally and meet our constitutional standards. But we do 
need to periodically step back and look at it and say, is it 
still accomplishing the objective we want? Is it protecting the 
merit system principle? And is it accomplishing the objective 
we want of having the best and the brightest?
    And if it is, then we might be able to still allow those 
flexibilities. If not, I think we need to work together, the 
Congress and the Executive Branch, to look at these to ensure 
that there is fairness across the board and not duplication.
    Sometimes things are started with a very good intent, and 
they might work for awhile, but then over time they fall into 
the same bad habits, if you will, that the old system had. If 
it is not working, whether it be an old system or a new system, 
we ought to change it, we ought to fix it. It ought to work, 
and it ought to be the best. That is the spirit that I would 
bring to this.
    I do not come into this with any ideological bent of saying 
everything has to be the same or we have to protect everything 
that is in existence. We need to look at everything with fresh 
eyes and say, is it the best? Is this doing what we want it to 
do? And do that jointly. I know the passion that you and 
Senator Voinovich have brought to these issues over your entire 
careers; you have a wealth of experience and insights into 
these issues, and you hear from your constituents.
    We need to incorporate that into the evaluation of these 
systems and make sure we are doing the right thing. So, bottom 
line, Senators, if you confirm me, I do not come into this with 
any pre-disposition, no prejudice, if you will, other than 
accomplishing the best and what works the best.
    Senator Akaka. Thank you. During the previous 
Administration, Mr. Berry, employee unions and other 
stakeholder groups often were not given an opportunity to have 
meaningful input into major policy initiatives. Having a buy-in 
from key stakeholder groups goes a long way to ensuring the 
success of any initiative.
    How do you plan to engage employee stakeholder groups and 
provide them an avenue to provide meaningful input into policy 
initiatives?
    Mr. Berry. Mr. Chairman, I think that is a great question, 
and I fully agree that we need to work in partnership. Labor 
and management need to work together to accomplish the same 
objective, which is the service of the American public and 
providing the best service to the American public.
    I have been honored to work at the Treasury Department, the 
Interior Department, and at the Smithsonian Institution. At 
each of those places, to varying degrees, I have been able to 
improve and enhance that sense of partnership. It is not a hard 
thing to do if you are willing to have open and fair 
communication. That is one of the first tests.
    My promise to both sides, both our management organizations 
and our labor organizations, is if I am confirmed in this 
position, there will not be surprises. I am not a shoot-from-
the-hip kind of guy. I will bring them all in on a regular 
basis, and they will have open access to me. I believe our job 
is to also make sure that is going on in each of the agencies.
    We need to create that spirit of partnership, and if you 
have that open and transparent sense of communication and 
trust, then great things can happen. At the Department of the 
Interior, when I got there, a lot of the things that you all 
have been talking about today were in existence. The political 
appointees were not appreciating the career civil servants. 
There was not good communication between the political and the 
career side.
    There was not good communication between labor and 
management. And one of the things I did was to roll my sleeves 
up and say, this has to be different. We cannot work unless 
this is hand-in-glove. If you approach it with that spirit--by 
the time I left, I think anyone would tell you, whether they be 
on the labor side of the aisle or the management side of the 
aisle, that partnership worked. It worked well, and it produced 
great things for the employees.
    The morale went up. The sense of pride in mission went up, 
and quite frankly, the effectiveness of the agency went up as a 
result as well.
    So it is essential that we do well. If you give me this 
job, I will work hard at making sure that happens both within 
OPM and throughout the government.
    Senator Akaka. Thank you very much for that. Just to go 
back to what Senator Voinovich was expressing here, if you can 
do all of this within your agency and make it work, then we can 
use it in other places as well.
    Let me call on Senator Voinovich for further questions.
    Senator Voinovich. As Chairman and now Ranking Member of 
the Subcommittee on Oversight of Government Management, the 
Federal Workforce, and the District of Columbia since 1999, I 
have worked hard to enact flexibilities to ensure the Federal 
Government has the right people with the right knowledge and 
skills at the right place and at the right time. If you look at 
the screw ups that have happened during the last number of 
years, it is basically because we have not had those people.
    We provided flexibilities, and quite frankly, as I 
mentioned earlier, agencies have not used them. It is 
discouraging that they are available and they are not being 
used. That is where OPM should be out there talking to folks 
about why agencies are not using these flexibilities.
    Others, such as the Nuclear Regulatory Commission and the 
National Aeronautics and Space Administration (NASA), have 
received unique authority outside of Title 5, and it is 
interesting that they remain at the top of the best places to 
work rankings.
    What I would like to know is, what are your views on 
whether government-wide recruitment, retention, and relocation 
incentives should be continued, perhaps enhanced, or whether 
individual Executive Branch agencies should be authorized to 
establish their own personnel systems?
    Mr. Berry. Senator, I think those are incredibly powerful 
tools and you and the Chairman and members in the House have 
been forward thinking in establishing them. The Federal 
Government needs to utilize them.
    You cannot get the best and the brightest unless you have 
those tools to compete, and you have provided them. We need to 
make them effective. We need to make sure that agencies 
understand that they have them and utilize them fully because 
otherwise you cannot be competitive.
    Relocation benefits is a classic case. I have worked in 
situations where before that authority existed, when the 
Federal Government could not offer that, we would regularly 
lose people because it costs $10,000 to $20,000 to move your 
family from the Midwest or from the West Coat to the East, or 
vice versa, and people cannot pay that out of their own 
pockets, especially when you look at the economy today. So as 
an employer, we have to take advantage of those flexibilities, 
and we have to make them work.
    I look forward to working with you. I am a big supporter of 
do not lose tools in the tool belt, and you have been kind 
enough to give them. If they are about to expire, I hope you 
will help us to extend them.
    Senator Voinovich. The security clearance process has been 
on the high-risk list since 1990. As much as we have tried to 
change that, we have not been successful, have we Senator 
Akaka?
    And there was a major undertaking by the four or five 
agencies involved, including OPM.
    Are you at all familiar with the work that they have done?
    Mr. Berry. Senator, I think a great deal of that is 
classified, and so I have not been able to access it in 
preparing for this hearing. I can tell you as someone who has 
held five security clearances in his government service, the 
highest being Code Word, above Top Secret, when I was at the 
Treasury Department, there are major problems with it, and 
there are duplications.
    For example, in my own case, Sister Hilarian was my first 
grade teacher. After that was verified in 1985, I am not sure 
why Sister Hilarian has to be re-approached every time as if 
she has never been talked to before. So I can just tell you, my 
experience with it is it seems to be duplicative. Now I 
recognize we have to move with extreme caution in this area. 
The Defense Department, the National Counterterrorism Center, 
and the Homeland Security Department--we will have to work in 
deep concert with them because this is too important to mess 
up.
    You cannot screw this up. But at the same time, there have 
to be great efficiencies that can be achieved here, and I would 
look forward, if I was confirmed in the job, to working with 
all of those agencies to try to make it more efficient.
    Senator Voinovich. Well at this stage of the game, the 
Department of Defense, the Office of Management and Budget, the 
Office of the Director of National Intelligence, the Office of 
the Assistant to the President for National Security Affairs, 
and OPM have developed plans to improve the timeliness and 
effectiveness of the security clearance process.
    They have set goals for 2009, and obviously you have not 
had a chance to familiarize yourself with the details, but I 
would like you to do that, and I would like to find out whether 
or not you support those plans and those goals.
    Mr. Berry. Yes, sir.
    Senator Voinovich. OPM and the Army have worked to 
demonstrate electronic receipt of personnel security 
investigation results from OPM. I would hope that you would 
continue to work with the agencies to expand that technology.
    People are not aware of this, but the backlog of security 
clearances, particularly with private contractors, is costing 
us a lot of money.
    Mr. Berry. It is huge. And it, quite frankly, is a 
vulnerability to the country, Senator, because if we do not 
have the right people in these jobs and the job is vacant 
because of the time delay, it could be creating a serious 
vulnerability in leaving ourselves open to something that we do 
not want to happen.
    So it needs to be faster. It needs to be more efficient, 
and my pledge to you would be that I recognize this is a long-
standing issue. I know the attention that has been brought to 
this. A lot of people have worked on it. If you give me the 
job, I will add my skills to this and see if I can help bring 
improvements forward for you.
    Senator Voinovich. I make one suggestion to you. Get a hold 
of the Government Accountability Office (GAO) because they are 
the ones that do the rating that informs the high-risk list. 
Find out what is causing them heartburn. I will not be around, 
but I would love to know that this is not still on the high-
risk list. If you could knock that off the list, that is a big 
gold star.
    Mr. Berry. Sir, I will work very hard on that. It is 
critical for the safety of the country and for our citizens, 
and so I would devote the attention and time and energy to this 
to see if we could bring that gold star home.
    Senator Voinovich. Great.
    Senator Akaka. Thank you very much, Senator Voinovich. Let 
me ask my final questions here, Mr. Berry. I think we agree 
that we need to make the Federal Government--and this is what 
Senator Voinovich and I have talked about--the employee of 
choice for the best talent in America, and you have mentioned 
that too in your statements.
    According to a recent report from the Partnership for 
Public Service, government and public service are the most 
popular industries for undergraduate students. As the economy 
continues to struggle, the stability of government service 
becomes even more attractive. It is important for agencies to 
seize the opportunity to bring in top notch talent, especially 
to meet the pressing need to manage and oversee economic 
recovery spending.
    How do you plan to help agencies quickly hire highly 
qualified employees to meet current needs and to ensure that 
the Federal Government fulfills your vision of being the 
Nation's model employer over the longer term?
    Mr. Berry. Mr. Chairman, I think, thankfully, OPM has 
already been hard at work on one of those. I think there are 
two critical positions, if you will, classifications that are 
essential to the success of the stimulus effort. The first is 
contracting officers. If we do not have good contracting 
officers, there is an awful lot of money that is going to be 
spent out there, and it will be spent poorly.
    We need to ensure it is going to be spent well. We have to 
have professionals doing that job, and we need them fast. And 
this is one where OPM has awarded direct hire authority to 
agencies. We need to look at what else we can do, and that is 
one where I think you all have looked at retirement 
flexibilities.
    Maybe we might be able to bring back some of these folks 
who have specific skills in this set for limited terms to help 
in these situations. So we need to do everything we can to get 
good, sound expertise into procurement positions as fast as we 
can.
    The second most important one, and it is critical, it is a 
great opportunity for us. My experience in both the public 
sector and in the non-profit sector is during tough times when 
agency budgets decline, the first thing that happens in the 
non-profit world is education positions get cut.
    In the public sector, the first thing that gets cut are 
human resource professionals. They always believe, and they 
believe it erroneously, that we are not going to be hiring 
people, or not as many, so we do not need as many people in our 
shop right now. So they whittle that down.
    Well then something comes along where you have to hire 
people fast and now you have a skeleton crew, and they are 
expected to preserve the merit principles and hire the best and 
the brightest, but to do the workload that is 5, 10, 100 times 
greater than what was expected of them when those cuts were 
originally made, and we need to rebuild that human resource 
function in the agencies.
    So my hope, if I am given this job, is that OPM can take 
advantage of this opportunity and develop a short list. In 
other words, short circuit the process. Create a pool of human 
resource professionals that they have already vetted, that they 
have done the talent search on, that they have allowed 
competitive examination and application on so that you can say 
to agencies, look, Secretary of Commerce, here is a pool. If 
you need a human resource officer, you can meet the folks in 
this pool. If you like them, hire them on the spot. You do not 
need to do anything more.
    Keep interviewing them until you find somebody you like and 
hire them and get them to work the next day. I think if we can 
do that with human resource professional jobs in this 
situation, we may be able to rebuild some of the damage that 
has been done throughout the government in our human resource 
function right now and put in place the people that we are 
going to need to rely on for all of these other areas that we 
have been talking about today.
    I think those are just two opportunities, two very 
critical, important opportunities, and as we find out through 
the process that there are others we need to address, we are 
going to have to jump in with that same approach. But kind of 
like, Senator, you were saying, make your own agency work. I 
think look homeward angle is a good practice.
    In this case, maybe we cannot fix everything, but let us 
say we fix two, and if we got those two to work well and work 
right, then we can use that as a model to move on to the next 
one and the third one and the fourth one and keep going and 
just hopefully keep moving forward, forward, forward. That is 
the spirit which I will try to bring.
    Senator Akaka. Mr. Berry, one of OPM's many roles is to 
help veterans----
    Mr. Berry. Yes, sir.
    Senator Akaka [continuing]. Return to the workforce and 
find Federal employment and understand how veterans' preference 
works. OPM has a website that serves as a resource, but I am 
concerned that OPM is not doing enough. How would you ensure 
that agencies use veterans' preference properly and help 
veterans seeking Federal employment?
    Mr. Berry. Mr. Chairman, there is no more serious 
responsibility of the Director of OPM. Our men and women who 
put themselves in harm's way to protect our freedoms deserve 
the absolute best service when they return. I will be a 
passionate defender of veterans' preference. It is a wonderful 
program. It has been in place since the Civil War, and it has 
been an effective tool to help us reengage people who come back 
from serving their country and putting themselves in harm's 
way.
    I believe we cannot just stop with the point system. We 
fail if that is all we do, is give them the points. We have to 
give them the training. We have to give them the accommodation. 
Many of these people are disabled. We need to put in place and 
make simple, for the agencies, the technologies and the 
abilities to employ these folks, and that can be done very 
centrally.
    One of the things I did at the Department of the Interior 
that I was most proud of was we created one center for 
disability technologies that any bureau of the Department of 
the Interior could go and use, and if someone came in and said 
look, we have someone who has a sight impairment or we have 
someone who needs a special tool to do their job, it was that 
agency's job to work to find the solution. The Defense 
Department does a super job at this, and they would work with 
Defense, but sometimes in the government, we do not have the 
solution.
    We would go to the private sector to find the solution, and 
that person's job was to find it no matter what and make it 
work. And then that tool was there that allowed us to actually 
bring the person who really was not disabled. My experience is, 
disability is a terrible term. They are differently abled. They 
often times have greater skills and greater senses to offer to 
us if we can just give them the tools to succeed.
    So I think we let our veterans down when we stop the 
process at the point system. We need to make it a full 
reengagement process, and we need to work not only within OPM, 
but within all the Federal Government to give full access to 
technologies, to tools, and to retraining so that we can get 
the best out of their services, and they can continue to serve 
their country in a civil capacity.
    Senator Akaka. This is my final question. I know you will 
be doing a lot of studying and learning to get up to speed on 
all of the details of Federal personnel policy and the workings 
of OPM, and I am confident in your ability to do so. As you 
approach these new topics and issues, what will be your guiding 
principles in making policy decisions?
    Mr. Berry. Mr. Chairman, that is an easy answer for me and 
it is what is the right way, what is the best way? My 
experience has been if you put those two questions first and 
foremost all the time, you will always end up further ahead 
than you otherwise would. I grew up in a house where, as I 
mentioned in my statement, my mom and dad were both 
Republicans. My brother is a Republican, and my sister and I 
are Democrats.
    We used to have very interesting dinner conversations, but 
you could not grow up in our household and not recognize that 
nobody, no party, no person has a lock on the truth. You get 
through that by being fair and open and communicating with 
people and striving to find what is the right way, what is the 
best way.
    And so through my experience, I think you have seen this, 
sir, over the 25 years in which I have been very pleased and 
honored to work with you from many different angles and 
capacities, that is how I approach every challenge. I do not 
look at what is--just because we have been doing it that way 
for 50 years.
    People wherever I have worked will tell you, the first 
question out of my mouth is always, wait a minute, what is the 
right way, what is the best way, and let us not rest until we 
find it. We may have to compromise along the way. It may be a 
bridge too far today, but we can at least be working toward it. 
That is the spirit that I would bring to this, sir, if you 
honor me by confirming me.
    Senator Akaka. Thank you so much for your responses to my 
questions. Senator Voinovich.
    Senator Voinovich. We had a chance to talk about this when 
you were in the office. I have been very interested in 
performance management, and I notice that the President has 
made a big deal out of the fact that he is interested in 
performance.
    One of the ways you improve performance is by performance 
evaluation and letting your folks know whether they are doing a 
good job or not doing a good job, but more important than that, 
folding them into the management and setting some goals for 
them in terms of how the various parts of your agency are 
operating so they really fully understand the role that they 
are playing.
    There are three areas where we made some progress. One is 
the Senior Executive Service where we went to pay-for-
performance. We also extended it to some of the technical folks 
at the agencies. I would really like you to look at that 
because in some areas it has been really successful. In other 
areas, it has not been as good as it should be. I attribute 
that to the fact that maybe they did not do the training that 
they needed to do for folks.
    The other area that we worked on was the Transportation 
Security Administration (TSA). As I mentioned to you, I know 
there is going to be an effort made to change the TSA system. I 
would like you to publicly tell me whether or not you are 
willing to objectively look at that system before you would 
recommend any changes in it?
    Mr. Berry. Absolutely, Senator. I can make you that promise 
right here on the record, not only in that case, but in all of 
the issues we have talked about today. I do not come into this 
with any answer in my head right off the top. I need to 
approach these gradually. I need to learn.
    I need to meet with all of the relevant parties and 
agencies, understand fully the complexities that are involved 
in these issues, and see if we can find consensus and common 
ground as to, again, what is the right way, what is the best 
way, and work together not only with people within the 
Executive Branch, but within the Legislative Branch, with you 
and your staffs, in determining those issues.
    Senator Voinovich. There will definitely be a move to take 
TSA and put it under Title 5. We have had it from the 
beginning. I have worked with former TSA Administrator Kip 
Hawley on several enhancements to the system, and I would 
really like you to look at that.
    I also think it is important that you find out about the 
employee satisfaction with the system. There are always people 
that are unhappy with it. You say you are going to look at it 
objectively; I think that is really important.
    The other area is the more than 200,000 civilian employees 
in the Defense Department that are part of a pay-for-
performance system. The information that I have received back 
is that it has been quite successful, although I will say that 
I am going to be visiting installations in Columbus and Dayton, 
Ohio, to again touch base with the folks there to see how they 
feel about it and so forth.
    I just think that from my experience in government from a 
lot of places, including as mayor and governor, this has really 
made a difference in terms of our people and their job and 
their job satisfaction.
    I have talked with Senator Akaka. We have not introduced 
the bill yet, but again, we are working on legislation to 
improve performance evaluation in all of the Federal 
departments, and it does not necessarily have to be done with 
pay. One place you ought to look is the General Services 
Administration (GSA). The man who ran that agency was Steve 
Perry; he worked for me when I was governor. He was head of 
administrative services.
    Mr. Perry went over there, went to work, and really put a 
good performance evaluation system in place. The interesting 
thing is that if you look at some of the ratings in some 
agencies that people get, it is like 98 percent. It is a 
perfunctory kind of thing. What happens, I think, under that 
kind of system is that if it is just perfunctory, then people 
just figure, hey, it does not matter. You will get around and 
you will see agencies where some of your best hitters are 
people who would like to be recognized for the job that they 
are doing.
    One of the problems I think we have in government, and I 
have talked to one person after another who have left the 
Federal service, is they say, I go to work for an agency, I 
work my butt off, and I do not get recognized for it, and 
others just kind of come in and do their thing.
    Do you understand what I am saying?
    Mr. Berry. Absolutely.
    Senator Voinovich. It is really not good.
    I really would like to have you spend some time in that 
area because I know you are going to be under pressure to 
abolish the system. But to me, it is something that is 
important for the future of our country.
    One of the things Senator Akaka and I did was a little 
simple thing like enhancing leave time for mid-career 
professionals entering the government. Employees are interested 
in knowing, if I come to work for an agency, is it going to be 
that much different than the kind of environment that I 
experienced in the private sector?
    Mr. Berry. Senator, you have hit on many points there, and 
if I could just comment on a couple. We have to expect the 
best, and we have to figure out ways to deliver it. Appraisal 
systems are one of the toughest things.
    I think it goes to human nature, whether you are a parent 
or in whatever capacity, no one wants to be the deliverer and 
bearer of bad news. Parents are slow to discipline their kids 
often because they are afraid, oh, how are they going to take 
it? How is this going to impact them?
    Managers are just the same, and consequently they put it 
off. Often times we put people in management jobs or they are 
promoted up over time. One day they come in, we say OK, you are 
a manager, and we give them absolutely no training. And here is 
this person who is thrown into this complex environment of 
Equal Employment Opportunity (EEO) that is extremely 
complicated, appraisal systems that they are not given any 
training on whatsoever, no matter how important it is.
    And they are expected to manage. And so consequently, they 
fall back to what is traditional human nature, which is, try to 
make everybody happy. In appraisal systems, you cannot make 
everybody happy. My experience in the Federal Government is 
99.5 percent of the employees are top notch, outstanding. But 
just as in the private sector, there are problem employees, and 
if somebody is not doing their job, if they are not performing 
up to the standard, it is demoralizing to everybody to see 
that, and it has to be dealt with.
    They have to be addressed, and we have to do that through 
fair appraisal systems so that if people are not doing the job 
and they are not meeting those core responsibilities, they 
should be removed, and we need to be clear about that. We need 
to expect the best. We need to ensure the American people that 
we are getting the best.
    We have to figure out how to do that in a way that 
recognizes that core human right, which is considered sort of 
like a human flaw, if you will, that we are afraid to tell 
people when they are doing the wrong thing or they are heading 
in the wrong direction. We need to let our managers know, in 
fact, you are helping that person.
    There are people who I have had to do that with, where I 
have had to say, look, you are on the wrong road and if you 
cannot get on the right road, you had better be updating your 
resume, it has gotten to be that serious, and I will work with 
you on this, but you need to know, I am taking this seriously 
now and I am watching.
    Twice people have come back to me in later years and said, 
thank you. Your doing that focused me. I did not realize I 
should have been doing these things. It is a manager's 
responsibility to bring those out, and in fact, people will 
welcome it.
    It will make us achieve that goal of expecting the best. It 
is a tough one, and I do not know of anybody who has nailed it. 
So it is one of the things I look forward to in doing this, 
with the Defense Department, TSA, and other agencies. I do not 
come into this with any predetermined belief or any commitment 
to anybody on these issues. I will come into them with a fair 
mind and look.
    And if it is working and it is right, then we ought to ask, 
can we translate that? Can we transfer that? Can we expand on 
that? If we cannot, and if it is not working, then let us fix 
it and let us figure out what will work.
    But it is a tough one, and appraisals are tough. It has to 
be done. We have to figure out a way to do this and do it 
fairly so that it is not misused or abused; I am not defending 
that. But people need to know that their performance standards 
are set, they are agreed on with management, they are held 
accountable to them, and they are regularly checked and 
evaluated on that.
    And that should be not just for employees in the Defense 
Department and TSA. It needs to be for every employee in the 
Federal Government. And we need to make that work and work well 
because that is the only way we are going to be able to 
guarantee to the public that they are getting the best.
    Senator Voinovich. If you can do that in your shop, you 
will be able to lead by example.
    Mr. Berry. I will do my best, sir, if you give me the job.
    Senator Voinovich. I thank you.
    Senator Akaka. Thank you very much, Senator Voinovich. Mr. 
Berry, there are no further questions at this time. There may 
be additional questions for the record, which we will submit to 
you in writing.
    The hearing record will remain open until the close of 
business tomorrow for Members of this Committee to submit 
additional statements or questions. I know you are anxious for 
your nomination to move forward. It is my hope that the 
Committee will vote on your nomination in the very near future 
and that it will be considered expeditiously by the full 
Senate.
    So with that, thank you very much for your patience, and 
for your family being here, and the extended family as well. 
This hearing is adjourned.
    Mr. Berry. Thank you, Mr. Chairman.
    [Whereupon, at 4:29 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

                PREPARED STATEMENT OF SENATOR LIEBERMAN
    I am pleased our Committee has the opportunity today to welcome M. 
John Berry, nominated to be Director of the Office of Personnel 
Management. Mr. Berry has spent most of his career managing people and 
programs in the Federal Government, and he appears to be well qualified 
to serve in the position to which he has been nominated.
    Having come from a family dedicated to public service--with a 
father and uncle who fought in World War II and a mother who worked for 
the Census Bureau--Mr. Berry learned from an early age about the 
dedication, intelligence, and commitment of those who make a career in 
service.
    Mr. Berry has a record of success on federal employee issues from 
the policy, management, and employee perspectives. He started his 
federal career as the Legislative Director for Rep. Steny Hoyer, 
handling major legislative initiatives on the federal workforce. He 
served as the Deputy Assistant Secretary of Law Enforcement for the 
Department of Treasury. Then at the Department of the Interior, Mr. 
Berry served as the Assistant Secretary for Policy, Management and 
Budget. For the past four years, he has been Director of the 
Smithsonian Institution's National Zoological Park. In these positions, 
Mr. Berry received hands-on experience managing tens of thousands of 
employees in a wide range of occupations and circumstances. He has 
overseen major capital projects and launched several innovative 
initiatives for training and overseeing the work of employees and 
managers and to improve work life conditions at the workplace.
    Throughout his career, Mr. Berry has worked successfully to improve 
employee morale and workplace productivity. He helped design the 
landmark legislation governing the structure of the pay system for 
federal employees and created an agency university for employee and 
manager training. And he has always worked to ensure an open line of 
communication between management and employees.
    As head of OPM, Mr. Berry would be responsible not only for the 
4,800 employees under his direct supervision. He would set the human 
capital agenda for the entire federal workforce at a critical time, as 
we work to restore confidence in government, create the next generation 
of leaders as senior employees retire, and hire and retain a talented 
and dedicated workforce. Mr. Berry will also face looming human capital 
challenges. Many in the federal workforce are aging and nearing 
retirement. At the same time, many job-seekers complain about the 
tedious process of finding and applying for federal jobs, as well as 
the length of time it takes to get through the hiring process.
    The Federal Government has long been a leader in areas such as 
flextime, maternity and paternity leave and anti-discrimination rules. 
Despite this, employees often do not take advantage of existing 
policies, as a 2008 Government Accountability Report pointed out. I am 
pleased that Mr. Berry has said he would address these issues to help 
make the Federal Government an attractive option for job-seekers and to 
keep it an attractive option for current employees.
    Once again, I would like to offer my congratulations to Mr. Berry 
on his nomination, commend him on his record at the highest levels of 
government, and thank him for his agreement to take on these new 
responsibilities and challenges at the Office of Personnel Management.
                               __________
           PREPARED STATEMENT OF SENATOR BARBARA A. MIKULSKI
    I strongly recommend John Berry for the Director of the Office of 
Personnel Management (OPM). John has been an extraordinary Federal 
employee for nearly 20 years serving as a manager from day one.
    I first met John when he was Legislative Director for now House 
Majority Leader Steny Hoyer. Back in those days, John handled Federal 
employee issues and was the lead staff on the Federal Employees Pay 
Comparability Act. From the Maryland Congressional Delegation, John 
moved to the Executive Branch serving in various management positions 
at the Smithsonian Institute and the U.S. Departments of Treasury and 
Interior.
    As the Senator from Maryland, I represent 130,000 Federal 
employees: from Nobel Prize winners at NIH to the Coast Guard who are 
protecting Calvert Cliffs' nuclear plant. Federal employees are on the 
front lines working hard every day. They guard our borders and protect 
Americans at home: our Nation, our communities, and our way of life. 
Whether it is a claims processor at Social Security making sure seniors 
get the benefits they have earned, a weather forecaster at NOAA giving 
farmers the information they need to feed America, or an administrative 
assistant at the Department of Defense supporting our military, Federal 
employees are dedicated and duty driven. And I know John will lead them 
well.
    There is no doubt that John has the resume for this job. But what 
makes him the best candidate is John's positive and enthusiastic 
attitude. This is something those of you that do not know John cannot 
gleam from his resume.
    John has my full support and confidence. He will bring new ideas, 
energy and expertise to OPM. Thank you for your thoughtful 
consideration of his nomination.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
